    A Strategy for a Future Mail Processing &
             Transportation Network




                                July 6, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-11-006
U.S. Postal Service Office of Inspector General                                  July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network             RARC-WP-11-006



   A Strategy for a Future Mail Processing & Transportation
                            Network


                                      Executive Summary

For more than 230 years, the Postal Service evolved with the needs of a growing
country. A vast and complex network of processing facilities and transportation links
was created to meet its universal service obligation. While
the Postal Service lists over 500 mail processing facilities,    There is a mismatch
                                                                 between the existing
the backbone of the current network consists of 260 major
                                                                 network capacity
Processing and Distribution Centers (P&DCs). This legacy         and user needs.
network was built for a different time and different level of
processing capabilities, mail mix, and volume growth. Today, the Postal Service has
highly automated processing technology and provides incentives for its customers to
presort the mail and drop ship it deeper into the network. Against this backdrop of
increasing processing capacity is a likely future of stagnant or decreasing mail volumes.
For at least the last decade, there has been a mismatch between the existing powerful
network capacity and decreasing user needs. Without a strategic transformation, by
2020, the network capacity will greatly exceed demand.

In this paper, the U.S. Postal Service Office of Inspector General (OIG) Risk Analysis
Research Center (RARC) presents a high-level approach to design a future mail
processing and transportation network based on modeling techniques and stakeholders’
input. This approach can be used by postal management and policymakers in
understanding the systematic changes required to modernize the network and the cost
of delaying those changes. We worked with modeling and network design experts to
develop a simulation model of a mail processing and transportation network. Simulation
                            models are a proven, accepted technique used within
  A strategic plan is
  needed to create a
                            numerous industries to guide business strategy,
  network that meets        implementation, and outreach efforts. We used this technique
  future needs.             to reproduce how mail is processed and transported and then
                            assessed how changes to the network impact cost and
service. Specifically, we increased and decreased the number of major plants by
changing the size of the service area and varied how mail was routed between those
plants. Using this process helped identify an optimal network configuration.

In creating the model, we began with a blank slate and created a hypothetical network
of major plants. These plants were comparable to P&DCs, not other mail processing
facilities such as annexes or customer service facilities that represent almost half of the
total number of mail processing facilities but have a smaller role in actual mail
processing operations. Some of the major plants in the hypothetical network also
operated as consolidation hubs. In addition to processing mail, consolidation hubs
combined and routed mail between other major plants. Next, we simulated a number of


                                                    i
U.S. Postal Service Office of Inspector General                                  July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network             RARC-WP-11-006


alternative networks using estimated future 2020 mail volumes. Finally, based on
simulation results, we selected the network that best minimized cost and preserved
service.

This high-level approach is a critical component of a strategy for a future mail
processing and transportation network. It can guide strategic decision making,
complement ongoing local and regional optimization efforts, and facilitate necessary
discussions with stakeholders. By design, the theoretical model is not an operational
blueprint detailing which specific plants would be shut down, where new ones should be
built, or how big the plants should be. Instead, the model provides an outline of a
modernized network with an optimal number of plants that minimize cost while
preserving service. Because the Postal Service is not beginning with a blank slate but
an established, legacy network, we expect that the actual number of major plants
needed for future mail volumes may be different than our model results. Regardless, the
model provides a useful end target in mind and supports strategic transformation efforts.

Our research and analysis showed the following results.

     1. A network of 135 P&DCs, of which 15 also operate as consolidation hubs, would
        lower net processing and transportation costs. It would meet or exceed existing
        service performance for all mail, except for eight percent of non-presorted Priority
        Mail (less than a few hours delay on average). The impact on service for non-
        presorted Priority Mail is arguably marginal and, if not mitigated by operational
        improvements, may be an acceptable tradeoff for significant cost reductions.
        Ignoring transition costs, the new 135-plant network would cost the Postal
        Service around $2 billion less per year to operate than the existing network.




      2020 Mail Volume and
        Workload Demand
      Requires a Total of 135
     P&DCs, of which 15 also
           Operate as
       Consolidation Hubs



          120 P&DCs 
              15 P&DCs/Consolidation Hubs 




     2. The Postal Service continues to make gradual progress in rightsizing the
        network. Since fiscal year 2006, it has closed 145 mail processing facilities
        including nine major processing plants. However, to ensure the best results, a



                                                    ii
U.S. Postal Service Office of Inspector General                                  July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network             RARC-WP-11-006


        comprehensive, long-term strategy can inform and guide local and regional
        changes.

    3. Facility consolidations will affect employees. However, in the next 10 years, over
       half of the Postal Service work force will be eligible to retire and, if implemented
       thoughtfully, substantive restructuring with significant savings can occur with
       minimal relocations and layoffs.

    4. Service standards are an important element in network rightsizing. However, a
       very large proportion of customers are open to relaxing the existing service
       standards in exchange for achieving substantial economies.

    5. Many potential partners, including employees, customers, and Congress, are
       willing and able to help the Postal Service. Despite the Postal Service’s stated
       concerns about stakeholder opposition, working with potential partners in
       planning and deliberation can increase the likelihood of successful
       implementation.




                                                    iii
U.S. Postal Service Office of Inspector General                                                                    July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                               RARC-WP-11-006




                                                 Table of Contents

Introduction ..................................................................................................................... 1 

Current Postal Service Network ...................................................................................... 2 
          How Mail Flows Through the Network .................................................................. 2 
          The Mail Processing Network ............................................................................... 3 
          The Transportation Network ................................................................................. 4 
          The Transportation Distribution Strategy .............................................................. 5 
          Factors Affecting Mail Processing and Transportation ......................................... 5 

Current Postal Service Network Rationalization Efforts................................................... 9 
          Strategic Initiatives (2001-2007) ........................................................................... 9 
          Incremental Initiatives (2006-Present) ................................................................ 10 
          Results of Network Rationalization Initiatives ..................................................... 10 
          An Incremental Approach May Not Be Enough .................................................. 12 

Model Framework and Results ...................................................................................... 13 
          Model Framework: What We Did ........................................................................ 13 
          Model Results: Significantly Fewer Facilities Needed ........................................ 17 
          Key Model Observations .................................................................................... 18 

Conclusion .................................................................................................................... 20 




                                                                 iv
U.S. Postal Service Office of Inspector General                                                               July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                          RARC-WP-11-006


                                                      Tables

Table 1            Number of Processing Facilities FY 2010 .............................................. 3 

Table 2            FY 2010 Purchased Transportation Expenses ...................................... 4 

Table 3            Net Change in Mail Processing Facilities ............................................ 11 

Table 4            Net Change in Purchased Transportation Expenses ........................... 11 

Table 5            Facility Placement Scenarios............................................................... 14 

Table 6            Summary of Model Results.................................................................. 17 

Table 7            Postal Mail Processing Facilities FY 2004 through
                   FY 2010 ............................................................................................... 24 

Table 8            Estimated 2020 Mail Growth Rates ..................................................... 26 

Table 9            FY 2009 Drop Ship Percentages ......................................................... 26 

Table 10           Mail Types Modeled ............................................................................ 31 

Table 11           FY 2009 Transportation Cost Factors.................................................. 32 

Table 12           Processing Cost Parameters ............................................................... 33 

Table 13           Results of Various Model Scenarios .................................................... 36 

Table 14           Annual Cost Differences Estimate: 135 Facilities with 15
                   Hubs .................................................................................................... 38 

Table 15           Stakeholder Interviews by Mail Segment ............................................. 40 

Table 16           Stakeholder Interview Summary .......................................................... 41 


                                                     Figures

Figure 1           Simplified Mail Flow Diagram ................................................................ 2 

Figure 2           Simplified Example of a Hybrid Transportation Distribution
                   Strategy ................................................................................................. 5 

Figure 3           Evolution of Mail Processing Capabilities .............................................. 6 




                                                            v
U.S. Postal Service Office of Inspector General                                                               July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                          RARC-WP-11-006


Figure 4           Percent of First-Class Mail Workshared Letters 1970
                   through 2010 ......................................................................................... 7 

Figure 5           Percent of Drop Shipped Standard Mail 1995 through
                   2010 ...................................................................................................... 7 

Figure 6           Service Standards by Major Mail Class ................................................. 8 

Figure 7           Historical Mail Volumes 1970 through 2010 (Billions) ............................ 8 

Figure 8           Postal Service Rationalization Efforts .................................................... 9 

Figure 9           Mail Volume by Class for FY 2004 – FY 2010 and
                   FY 2020 ............................................................................................... 12 

Figure 10          Three Critical Steps of the Model Framework...................................... 13 

Figure 11          Alternative Distribution Strategies Analyzed ........................................ 15 

Figure 12          Baseline Network with a total of 319 Facilities (70-Mile
                   Service Radius), of which 22 are Consolidation Hubs
                   (400-Mile Service Radius) ................................................................... 16 

Figure 13          Preferred Network – 135 Facilities (120-Mile Service
                   Radius) of which, 15 are Consolidation Hubs (500-Mile
                   Service Radius) ................................................................................... 18 

Figure 14          Timeline of Network Rationalization Publications & Plans ................... 20 

Figure 15          Mail Flow Diagram ............................................................................... 23 

Figure 16          Example Network Topology of 96 Facilities (150-Mile
                   Service Radius) ................................................................................... 28 

Figure 17          Alternative Network Scenarios............................................................. 29 


                                                 Appendices

Appendix A         Mail Flow Diagram ............................................................................... 23 

Appendix B         Mail Processing Facilities .................................................................... 24 

Appendix C         Model Framework ................................................................................ 25 

Appendix D         Model Results and Cost Difference Calculation................................... 36 

Appendix E         Stakeholder Interview Summary .......................................................... 40


                                                            vi
U.S. Postal Service Office of Inspector General                                July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network           RARC-WP-11-006




          A Strategic Vision for a Future Mail Processing &
                       Transportation Network


Introduction
Historically, the mission of the Postal Service’s processing network has been to keep up
with growing volume and geographic expansion; but times have changed, resulting in a
new world. While mail processing and transportation networks have remained relatively
unchanged, the new world consists of an established worksharing environment where
mailers do more of the work, a mature and high level of automated processing
technology, and changes in mail mix, volume, and customer expectations. The defining
characteristic of this new world is that the gap between operational capacity and
network demand continues to grow.

The way the Postal Service touches the mail today is different than it was 30 years ago
and the flow of mail from origin to destination has changed. There is an emerging
consensus for the need to rightsize the Postal Service’s mail processing and
transportation network. For several years, the Postal Service has examined plans to
consolidate its mail processing plants and reconfigure its transportation network. The
fundamental question still remains: what should the mail processing and transportation
network look like to meet future demand? And how many plants will be needed? A
former deputy postmaster general suggested that in order for the Postal Service to be
fully efficient, its footprint must be much smaller, possibly comprising 150 plants and
400,000 employees. Another stakeholder said the current network is twice the size it
should be. Are these reasonable assessments?

The U.S. Postal Service Office of Inspector General (OIG) Risk Analysis Research
Center (RARC) considered these questions and worked with modeling experts to
develop a simulation model that can be used by Postal Service management,
stakeholders, and oversight groups to identify what is needed to strategically rightsize
the network. The approach is not an operational blueprint detailing which specific plants
to shut down or where to build new plants. Instead, it provides an analysis of the total
number of plants required to meet future fiscal year (FY) 2020 demand in a network that
best minimizes cost and preserves service. We discuss how mail currently flows
through the network and the various factors that affect mail processing and
transportation. We also discuss network rationalization initiatives the Postal Service has
embarked on over the last ten years. In support of this effort, we conducted interviews
to gain insights from the Postal Service, the mailing industry, congressional
stakeholders, and union officials.




                                                    1
U.S. Postal Service Office of Inspector General                                                              July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                         RARC-WP-11-006


Current Postal Service Network
The current Postal Service network developed over many decades and is a coordinated
interaction among processing facilities, transportation links, and delivery carriers. The
network comprises over 500 facilities of varying roles and sizes that process everything
from individually stamped letters originating at local Post Offices to many-thousand-
piece bulk mailings entered at destination facilities. This section describes the current
mail processing and transportation network and the many factors that have shaped its
development.

How Mail Flows Through the Network

Collection, mail processing, transportation, and delivery are the major functions within
the Postal Service. Several modes of transportation are used to move the mail between
facilities, as determined by the quantity to be moved and the transit time allowable
under the service standards. Figure 1 is a simplified diagram of how mail flows through
the postal system. Appendix A presents a more detailed mail flow diagram.
                                     Figure 1: Simplified Mail Flow Diagram




      Entry/          Origin                                                          Destination                    Delivery
                                  Transportation    Consolidation   Transportation                  Transportation
                    Processing                                                        Processing
    Acceptance                                         Facility
                       Plant                                                             Plant


                                                   Mail Processing & Transportation


Source: OIG Based on Postal Service Information

Mail enters the postal network via collection boxes, retail windows, detached mail units
at mailer facilities, or business mail entry units at postal facilities.1 Facilities, such as
Post Offices™, stations, branches, and contract postal units, collect outgoing mail from
customers. At the same time, mail arriving at these facilities is taken out for delivery.
After the outgoing mail is collected, it is handed off to the origin processing facility. Mail
proceeds through origin processing facilities, consolidation facilities, and destination
processing facilities.2 At origin processing facilities, mail is separated and sorted into
common destinations and from there transported to the final destination facilities for
1
  Business Mail Entry Units (BMEU) and Detached Mail Units (DMU) typically accept commercial mailings from
business customers and their mail service providers. Commercial mail can also bypass originating processing
facilities and transportation and be taken directly to the destination plant or Post Office.
2
  Consolidation facilities include Network Distribution Centers, Surface Transfer Centers (STC), and Logistic
Distribution Centers (LDCs). STCs are consolidation points for First-Class Mail and Priority Mail. LDCs are
consolidation points for Priority Mail. These consolidation facilities serve to achieve transportation efficiencies by
consolidating mail destined for the same location.


                                                               2
U.S. Postal Service Office of Inspector General                                            July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                       RARC-WP-11-006


delivery to homes and offices. Some mail, like drop shipped commercial mail, can
bypass certain processing facilities and transportation. Most processing facilities
simultaneously handle incoming and outgoing mail.

The Mail Processing Network

The current mail processing network represents an incredibly broad array of facilities
that handled over 170 billion pieces of mail in FY 2010 (565 million pieces a day). Table
1 shows the Postal Service had 528 processing facilities in FY 2010; however, these
facilities perform different roles and functions in the network and are very different in
size and scope. Appendix B has additional information on mail processing facilities.

                          Table 1: Number of Processing Facilities FY 2010
                                                                       Number of
                        Processing Facilities                           Facilities
                        Process and Distribution Centers                        260
                        Customer Service Facilities                             164
                        Network Distribution Centers (formerly BMCs)             21
                        Logistics and Distribution Centers                       13
                        Annexes                                                  51
                        Surface Transfer Centers                                 11
                        Air Mail Centers                                           1
                        Remote Encoding Centers                                    2
                        International Service Centers                              5
                        Total Processing Facilities                             528
                        Source: Postal Service FY 2010 Annual Report

The backbone of the network are the 260 Processing and Distribution Centers (P&DCs)
and 21 Network Distribution Centers (NDCs). P&DCs prepare and distribute outgoing
mail to the network and distribute incoming mail to local post offices for delivery.
Generally speaking, the larger the facility, the more types of mail processing equipment
are present. In some instances, a facility may only process certain mail products and
shapes. As a rule, the number and locations of processing facilities are driven by the
overnight commitment standard for First-Class Mail, i.e., mail that must be collected,
cancelled, and returned to Post Offices for delivery the next day. As a result, plants
were thickly populated across the country to primarily deliver single-piece First-Class
Mail in 1 to 3 days.

NDC facilities are strategically located near major metropolitan areas and transportation
centers and are characterized by their resemblance to a truck terminal. NDCs serve as
centralized processing and transfer points for designated geographic areas. They are
the gateways to the surface and air transportation networks. The NDC network serves
to fill containers and trucks early in the network and dispatch them as deep into the
network as possible.




                                                    3
U.S. Postal Service Office of Inspector General                                                      July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                 RARC-WP-11-006


The Transportation Network

Postal Service transportation networks exist to support mail processing and delivery
activities. Transportation is the link connecting the outgoing and incoming distribution
elements that create the network. From the highway contractors to the wide-body cargo
planes operated by FedEx and United Parcel Service (UPS), purchased transportation
represents the second-largest share of postal costs after labor. The transportation
network is principally composed of contracted highway and air transportation. Surface
transportation is primarily used to transport Standard Mail®, Periodicals, and Package
Services. Surface transportation is also used to transport First-Class Mail® usually
within a 500-mile destination radius.3 Generally, transportation of mail by air is more
expensive than surface transportation and is reserved for longer trips and mail classes
with tighter service standards, such as First-Class Mail, Priority Mail, and Express Mail.
Table 2 shows the Postal Service spent $5.9 billion on purchased transportation in FY
2010. Transportation network expenses are impacted by many factors including miles
traveled, weight, cubic feet, vehicle utilization, and fuel cost.

                          Table 2: FY 2010 Purchased Transportation Expenses
                                              (In Millions)
                                                             FY 2010
                               Mode of Transportation        Expense
                               Highway                         $3,205
                               Air                              2,425
                               Other                              248
                               Total Transportation Expenses   $5,878
                               Source: Postal Service FY 2010 Annual Report

For air transportation, FedEx is the primary carrier and has two networks: a night
operation with 147 air stops to transport Express Mail and a day operation with 76 air
stops to transport Registered Mail, Priority Mail, and First-Class Mail. UPS also supports
Postal Service air transportation by transporting First-Class Mail and Priority Mail.
Commercial airlines also transport some First-Class Mail, Express Mail, and Priority
Mail. The surface transportation network is mostly comprised of over 17,000 commercial
contract highway carriers. There are three types of highway transportation contracts:
regular, temporary, and emergency. Regular transportation contracts are competitively
awarded for 4 years and are renewable by mutual agreement. Temporary highway
transportation contracts cannot exceed 2 years and emergency highway transportation
contracts are entered into to meet unusual needs such as when an emergency occurs.




3
 The Postal Service has suggested that surface transportation might also be used to transport mail distances as long
as 1,300 miles in particular, advantageous situations.


                                                         4
U.S. Postal Service Office of Inspector General                                                                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                                   RARC-WP-11-006


The Transportation Distribution Strategy

The objective of mail distribution is to collect, transport, and deliver mail expeditiously
within specified service standards for each class of mail. The current Postal Service
transportation distribution strategy is a hybrid of hub-and-spoke and direct plant-to-plant
connections. The hub-and-spoke portion of the strategy routes mail from a facility to a
consolidation point such as an NDC and then distributes the mail to smaller facilities in a
given geographic area. The direct plant-to-plant connections are usually regional and
allow mail to be routed directly from one plant to another without going through a
consolidation point. Figure 2 provides a simplified example of a hybrid transportation
distribution strategy.
           Figure 2: Simplified Example of a Hybrid Transportation Distribution Strategy


                                                                           Geographic Region #1


                                                                                        Plant




                                                                        Plant                             Plant

                        Geographic Region #2                                            HUB


                                     Plant

                                                                                Plant             Plant


                     Plant                           Plant

                                     HUB
                                                              The double arrows represent transportation links.
                                                                  Mail is routed between processing plants,
                                                             consolidation hubs, and geographic regions using
                                                             the appropriate surface or air transportation mode.
                             Plant           Plant
                                                             Mail with 1 to 3 day service standards must be
                                                                   transported as quickly as possible.

Source: OIG Analysis


Factors Affecting Mail Processing and Transportation

In addition to the Universal Service Obligation, the evolution of mail processing
technology, work content and mail mix, service standards, and volumes are factors that
have shaped Postal Service’s mail processing and transportation network.

       Processing Technology: The Postal Service has made dramatic strides from
        manual handling to mechanized sorting to the automated processing equipment
        that sorts letters at extraordinary speeds. The introduction of ZIP Codes™ in
        1963 further simplified mail distribution by creating the ability to efficiently sort
        mail to common destinations. Figure 3 highlights how the methods used to sort
        mail to its final destination have evolved over the last 50 years. Highly automated
        processing capabilities also lead to greater efficiency and lower mail handling
        cost. While automated processing equipment does sometimes require a great



                                                             5
U.S. Postal Service Office of Inspector General                                                                                       July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                                                  RARC-WP-11-006


           deal of space, the level of processing technology that now exists suggests the
           need for a profoundly different mail processing network than the one born of
           manually sorting letters.

                                    Figure 3: Evolution of Mail Processing Capabilities




                                                       Mechanized




                                                                                              Automated
                        Manual   Prior to the 1960’s                1960’s – 1970’s                       1980’s – Present

                                 Hand Sorting Mail                  Sorting Machines that                 Advanced Processing
                                                                    Enhanced the use of                   Equipment and Barcode
                                                                    Manual Skills                         Reading Technology
                                 Most Expensive

                                                                    ZIP Codes Introduced in               Preferred and Optimal
                                                                    1963                                  Processing System

                                                                                                          Least Expensive




Source: OIG Analysis

          Work Content and Mail Mix: Work content (e.g., extent of destination entry,
           automation, and presort) and mail mix such as shape (e.g., letter, flat, and
           parcel) affect the demand for mail processing and transportation capacity.
           Historically, the Postal Service built its network to match the requirements of
           single-piece First-Class Mail letters and flats. But now, the increase in
           workshared mail has decreased the demand for processing and transportation
           capacity. The two major forms of worksharing, presorting and drop shipping, both
           bypass postal operations — drop shipping especially so, because it avoids origin
           operations altogether. Presorted mail requires less processing and by drop
           shipping, the mailer transports the mail directly to the destination postal facility.
           As highlighted in Figure 4, the percent of First-Class Mail workshared letters has
           increased to more than 60 percent. Also, Figure 5 depicts that drop shipped
           Standard Mail has increased to over 80 percent.4




4
    The Postal Service does not offer workshare discounts for drop shipping First-Class Mail.


                                                                            6
U.S. Postal Service Office of Inspector General                                                          July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                     RARC-WP-11-006

             Figure 4: Percent of First-Class Mail Workshared Letters 1970 through 2010


                               100%


                                80%


                                60%


                                40%


                                20%


                                 0%
                                     1970   1975   1980   1985   1990   1995   2000   2005    2010



Source: PRC Domestic Mail Volume History and Postal Service Revenue, Pieces, and Weights

                  Figure 5: Percent of Drop Shipped Standard Mail 1995 through 2010


                               85%

                               80%

                               75%

                               70%

                               65%

                               60%

                               55%

                               50%
                                            1995          2000          2005           2010



Source: Postal Service Billing Determinants

        Service Standards:5 Service standards are probably the most critical determinant
         of the number, size, and location of Postal Service processing facilities. Service
         standards also impact the type and frequency of the transportation links between
         those facilities. The network evolved to ensure that mail reached its final
         destination within a designated timeframe. Figure 6 outlines service standards in
         the 48 contiguous states for major mail classes. It is important to note that the
         national 1-to-3 day standard for First-Class Mail is a primary factor that drives the
         number of facilities needed in the network as well as determining if the mail
         travels by highway or air.




5
 Service standards are stated goals for service achievement for each mail class. The standards incorporate the
days-to-deliver for each 3-digit ZIP Code origin-destination pair within the Postal Service network. The standards also
serve as the benchmark for measuring service performance. There are over 852,000 origin-destination 3-digit ZIP
Code pair combinations in the postal network for each market dominant mail class.


                                                                 7
U.S. Postal Service Office of Inspector General                                                                                      July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                                                 RARC-WP-11-006

                               Figure 6: Service Standards by Major Mail Class



                                                    1-3 Days               Stringent Service Standards
                   First‐Class Mail                                        Dictate the Network Size

                   Standard Mail                                                          2-9 Days


                   Periodicals                                                      1-9 Days


                   Package Services                                                  2-8 Days


                                      0      1          2          3           4          5           6           7          8   9


Source: 2010 Comprehensive Statement on Postal Operations



       Mail Volumes: Mail volumes are also a determinant of the need for processing
        and transportation capacity. Figure 7 provides historical mail volumes from 1970
        to 2010. The Postal Service designed the current processing and transportation
        network to meet the historical growth in mail volumes. Since 1970, mail volumes
        have steadily grown reaching a peak of 213 billion pieces in 2006. Recent
        declines have contributed to the mismatch between network capacity and
        demand. Future mail volumes are an important factor in determining the size and
        extent of the future mail processing and transportation network. In simple terms,
        the existing network was built and staffed for historically high mail volumes.

                   Figure 7: Historical Mail Volumes 1970 through 2010 (Billions)


                         225



                         200
                                                                                                     Recent declines 
                                                                                                     result in a 
                                                                                                     mismatch between  
                         175                                                                         network capacity 
                                                                                                     and mail volume


                         150



                         125



                         100



                          75
                            1970      1975       1980       1985       1990        1995       2000         2005       2010




Source: Postal Service: Pieces of Mail 1970 to 2010




                                                                       8
U.S. Postal Service Office of Inspector General                                                                                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                                                   RARC-WP-11-006


Current Postal Service Network Rationalization Efforts
Since 2001, the Postal Service has initiated several major efforts to realign its mail
processing and transportation networks. Each initiative has addressed the issues
differently, but they all have potential merit. Figure 8 highlights the major phases of the
Postal Service’s rationalization efforts. There are some overlapping initiatives. For
example, the Evolution Network Development (END) included Area Mail Processing
(AMP) consolidation and discussed transforming the Bulk Mail Center (BMC) network.6
This paper categorized the efforts as strategic or incremental based on their breadth
and scope.
                                 Figure 8: Postal Service Rationalization Efforts



                                                        Strategic (2001 – 2007)
                                Network
                                                                                          • NIA redefined plant roles and
                            Integration and                                                 functions as part of an overall
                            Alignment (NIA)                                                 network solution

                                                     Evolutionary Network
                                                                                          • END redesigned the network into 70
                                                      Development (END)                     Regional Distribution Centers (RDCs)
                                                                                            and modified surface transportation



                                                   Incremental (2006 – Present)
                      • Eliminated AMC operating functions                        Eliminate Air Mail Centers
                                                                                           (AMCs)
                      • Transformed BMCs into three-tiered
                        NDCs; Moving STCs and LDCs into                                  Bulk Mail Center
                                                                                       (BMC)Transformation
                        NDCs

                      • Consolidate outgoing and incoming                              Area Mail Processing (AMP)
                        processing operations                                                Consolidations

                                                                                                 Facility Optimization,
                      • Eliminate excess facility capacity and equipment                          Equipment & Space
                                                                                                    Consolidation


                     2001      2002     2003       2004       2005         2006   2007     2008       2009       2010 Present
Source: OIG Analysis


Strategic Initiatives (2001-2007)

From 2001 through 2007, the Postal Service explored strategic rationalization efforts at
a time when volumes were still growing and its financial health was good. The Postal
Service presumed it had the capital to build new facilities and close old ones. Network
Integration and Alignment (NIA) and END were strategic “big bang” proposals designed
to reduce total system costs and improve efficiency. NIA proposed to reconsider the role
and functions of existing postal plants, present reductions in transportation cost, and
explore new worksharing opportunities. END introduced a complete network redesign
that included creating 70 Regional Distribution Centers, modifying the surface
transportation network to reduce overall cost, and reducing redundant transportation
networks for different mail classes. In the end, the Postal Service perceived radical
6
 Although there were several proposals to streamline the BMC network between FYs 2005 and 2008, it was not until
May of 2009 that the Postal Service began the transition of the BMC network into NDCs.


                                                                           9
U.S. Postal Service Office of Inspector General                                                         July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                    RARC-WP-11-006


redesign proposals such as NIA and END7 to be impractical and instead began to
pursue incremental initiatives.

Incremental Initiatives (2006-Present)

Since 2006, the Postal Service scaled back the strategic plans of NIA and END and
modeled mail processing and transportation operations. The goal was to identify where
the network did not function efficiently and where there were opportunities to reduce
workhours and transportation costs, while not adversely impacting service. This
incremental approach included the elimination of Air Mail Centers (AMCs), the
transformation of BMCs into NDCs,8 Area Mail Processing (AMP) consolidations, and
elimination of excess facility space and equipment.9

Some of the Postal Service initiatives were a result of changing mailer behavior, i.e.,
increased workshared mail and decline in single-piece First-Class Mail. For example,
BMC network operations were no longer needed because the introduction of mail
preparation and transportation workshare discounts encouraged mailers to bypass BMC
origination operations and enter mail at destination postal facilities.

Results of Network Rationalization Initiatives

The Postal Service has made progress in streamlining the mail processing and
transportation network. Since FY 2005,10 the Postal Service closed several AMCs and
approved or proposed 29 AMP11 consolidations. In March 2010, the Postal Service
completed reorganizing the functions of the 21 BMCs into NDCs and as of October
2010 realized $111 million of projected annual savings.12 Between 2004 and 2006, the
Postal Service closed a net of two facilities; however, between 2006 and 2010, a net of
145 facilities of varying size and function were closed. Notably, rationalization efforts
closed nine P&DCs (major plants), the backbone of the mail processing network. In
addition, AMCs were no longer needed because of contracts with FedEx and UPS to
transport mail by air. Table 3 presents the net change in mail processing facilities since
2004.




7
  Because END initiatives would potentially result in nationwide changes to service standards, it was presented
before the Postal Regulatory Commission. See Docket No. N2006-1.
8
  Appendix B provides additional details on the history of the BMC network.
9
  For example, in cases where there is excess capacity and floor space in plants, facilities such as annexes are
consolidated because they are no longer needed. Equipment may be repurposed or eliminated to create additional
space.
10
   GAO audit report, Mail Processing Network Initiatives Progressing, and Guidance for Consolidating Area Mail
Processing Operations Being Followed, (GAO-10-731), June 2010
11
   The Postal Service has initiated a number of AMP studies. Updated AMP studies are available on the Postal
Service website: http://www.Postal Service.com/all/amp.htm
12
   OIG audit report, Network Distribution Center Activation Impacts (EN-AR-11-002), March 2011. The NDC
implementation resulted in transportation savings of more than $77 million as of October 2010 and a portion of the
savings was from mail that formerly traveled on airline carriers that is now transported via surface transportation.
Actual workhour savings were $33.9 million.


                                                          10
U.S. Postal Service Office of Inspector General                                                         July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                    RARC-WP-11-006

                             Table 3: Net Change in Mail Processing Facilities
                                                                              Net Change
                           Processing Facilities                          2004-2006 2006-2010
                           Process and Distribution Centers                       0        (9)
                           Customer Service Facilities                            0       (31)
                           Network Distribution Centers (formerly BMCs)           0         0
                           Logistics and Distribution Centers                     0         2
                           Annexes                                                0       (15)
                           Surface Transfer Centers                               3        (6)
                           Air Mail Centers                                      (2)      (76)
                           Remote Encoding Centers                               (3)      (10)
                           International Service Centers                          0         0
                           Total Processing Facilities                           (2)     (145)
                          Source: OIG Analysis

Table 4 presents the net change in transportation expenses since 2004. As mentioned
earlier, transportation expenses are impacted by many factors, such as fuel costs and
mail weight, which may be unrelated to rationalization efforts. Nonetheless,
transportation expenses increased by $1.1 billion between FY 2004 to FY 2006 and
decreased by $200 million between FY 2006 and FY 2010.

                      Table 4: Net Change in Purchased Transportation Expenses
                                             (In Millions)
                                                                        Net Change
                              Mode of Transportation                2004-2006 2006-2010
                              Highway                               $     554 $     228
                              Air                                   $     586 $    (346)
                              Other                                 $     (64) $    (49)
                              Total Transportation Expenses         $ 1,076 $      (167)
                             Source: OIG Analysis

With the enactment of the Postal Accountability and Enhancement Act of 2006 (Postal
Act of 2006), the Postal Service is required to annually report its network rationalization
efforts to Congress.13 The plans outlined the three core network rationalization efforts to
include closure of AMCs, AMP consolidations of outgoing and/or incoming mail
processing operations, and transformation of the BMC network. The OIG and the
Government Accountability Office (GAO) conducted audits assessing the Postal
Service’s network rationalization initiatives.14 One OIG report highlighted that, although
the Postal Service has made progress in its effort to streamline its mail processing and
transportation infrastructure, management has been unable to fully adjust resources to
offset mail volume declines. The OIG also issued a series of facility optimization reports
that identified opportunities to optimize existing real estate.15 Excess space existed in a

13
   The Postal Service submitted its first-ever annual network plan to Congress in June 2008. It is required to annually
submit a summary report to Congress 90 days after the end of each fiscal year. The summary report must discuss
how postal decisions have impacted or will impact rationalization plans.
14
   OIG audit report Status Report on the Postal Service’s Network Rationalization Initiatives, (EN-AR-10-001),
January 2010; GAO audit report U.S. Postal Service Mail Processing Network Initiatives Progressing, and Guidance
for Consolidating Area Mail Processing Operations Being Followed, (GAO-10-731), June 2010. At the request of
members of Congress, the OIG has also audited specific AMP consolidation proposals.
15
   The OIG issued the following facility optimization audit reports during FY 2011: DA-AR-11-001, DA-AR-11-002, DA-
AR-11-003, DA-AR-11-004, DA-AR-11-005, DA-AR-006, and DA-AR-11-007. The OIG also issued Excess Space in
Mail Processing Facilities in the Suncoast District, (EN-AR-11-001), November 2010.


                                                            11
U.S. Postal Service Office of Inspector General                                                             July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                        RARC-WP-11-006


number facilities located in several districts. The OIG recommended that the Postal
Service clarify excess space reporting procedures and pursue opportunities with other
federal agencies as an option to optimize excess property.

An Incremental Approach May Not Be Enough16

The gap between mail processing and transportation capacity and demand is growing
and many stakeholders want to know more about the Postal Service’s long-term
strategies. As discussed previously, the same factors that created the existing mail
processing and transportation network can be considered in a future network design.
Those factors include the evolution of more efficient processing technology, different
work content and mail mix, meeting service standards, and significant declines in mail
volumes. Processing technology is continuing to improve resulting in higher machine
throughputs and new processing capabilities (e.g., flats sequencing). Major business
customers are presenting mail that is presorted more finely and drop shipped more
deeply into the Postal Service network. With more work being done by its customers,
there is less work for the Postal Service.

Declines in mail volume further create an opportunity to rightsize the mail processing
and transportation network. Overall total mail volume peaked in FY 2006 and
significantly declined in FY 2010. Figure 9 presents current and future17 mail volumes by
mail class. Although Standard Mail and Package Services volumes are projected to
slightly increase, First-Class Mail projected volumes decrease significantly.

                   Figure 9: Mail Volume by Class for FY 2004 – FY 2010 and FY 2020
                                             (In Billions)



                            100

                                                                                   Standard Mail

                             80



                             60

                                                                                  First-Class Mail

                             40



                             20
                                                                                      Periodicals
                                                                                Package Services
                              0
                               2004   2005   2006   2007   2008   2009   2010                    2020


Source: Postal Service Annual Reports and BCG 2020 Mail Volume Projections


16
   A former Postal Service Vice President of Strategic Planning discussed lessons learned from an earlier
transformation effort and offered insights to how organizations can keep a turnaround from faltering. One insight
cautioned organizations not to mistake incremental improvements for strategic transformation and noted that
operational successes can blind you to the need to re-invent the business strategically. See, generally, “When a
Turnaround Stalls,” Harvard Business Review, February 2002.
17
   Future mail volumes are the Boston Consulting Group mail volume forecasts for FY 2020.


                                                             12
U.S. Postal Service Office of Inspector General                                                           July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                      RARC-WP-11-006


Model Framework and Results
This section describes the framework used to simulate a future Postal Service mail
processing and transportation network.18 The modeling goal was to develop a high-level
objective and transparent simulation of mail processing and transportation network
processes to determine the performance of hypothetical network designs using
projected FY 2020 mail volumes. The model also evaluated the impact of various
transportation network distribution strategies on cost and service. The objective was not
intended to precisely replicate the real-world postal network, but rather, to provide a
framework for testing the performance of hypothetical network designs and thereby
inform the debate over possible future changes to the mail processing and
transportation network.

Model Framework: What We Did

The model began with a blank slate, or green field, approach for determining the
appropriate number of processing plants and extent of transportation. The model
simulated domestic mail volume flows for 13 major mail products, which were defined
based on mail class, shape (e.g., flats and letters), and presort level.19 Although the
model does not identify specific facility locations or transportation routes, it does
address key characteristics of a future rightsized network such as the number of plants
and the service radius covered by each plant. Figure 10 presents the three critical steps
of the model framework: number of facilities, transportation distribution strategy, and
impact on cost and service. Following is a brief discussion of each stage. The mail types
modeled and a more detailed discussion of the model framework can be found in
Appendix C.

                          Figure 10: Three Critical Steps of the Model Framework




                                                    Transportation 
                       Number of                                                  Impact on Cost and  
                                                     Distribution 
                        Facilities                                                     Service
                                                       Strategy




Source: OIG Model Analysis

18
   Modeling and simulation is a discipline used for developing a level of understanding of the interaction of the parts of
a system, and of the system as a whole. A model is a simplified representation of the actual system intended to
promote understanding. A simulation generally refers to a computerized version of the model which is run over time
to study implications of the defined interactions.
19
   The study analyzed the network for letters and flats, which comprise over 97 percent of mail volume. Although
there may be some overlapping, the Postal Service’s current processing and transportation network for letters and
flats is somewhat distinct from the processing and transportation network for parcels. Our research of foreign posts
further suggests that a best practice is to establish and manage a separate network for parcels. A similar, follow-on
study could analyze a separate network for parcels.


                                                           13
U.S. Postal Service Office of Inspector General                                                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                   RARC-WP-11-006


First Step: Number of Facilities

The modeling’s first critical step is the number and general placement of processing
facilities, establishing a network footprint. Regardless of the current location of
processing plants, a geometric facility placement approach was used that assumed
each processing facility could service all of the 3-digit ZIP Codes within a specified
service radius. This service radius variable was used to indirectly alter the number of
facilities in the network, i.e., a larger service radius produced a network with fewer
facilities, and vice versa. The approach determined the number of plants based on a
maximum service radius and specific placement rules.20 At first, the methodology
established a baseline of processing facilities that approximated the current number of
plants based on a 70-mile maximum service radius. This resulted in a baseline
processing network of 319 facilities that serve every 3-digit ZIP Code.21 Although the
319-facility baseline network is not identical to the current Postal Service network, it
loosely represents the backbone of the network, which comprise 260 plants and 21
NDCs, or 281 facilities.

The baseline provides an apples-to-apples starting point to compare alternative
networks. Defining a baseline network also provided a common reference point for
interpreting the relative performance of all other alternative network scenarios that were
tested. The model evaluated four alternative networks in addition to the baseline
network. The alternative networks were based on a maximum service radius ranging
from 55 to 150 miles. Table 5 presents the baseline along with the four additional
scenarios, which resulted in a facility count ranging from 96 to 404 processing plants. A
map depicting the modeled baseline network and the four alternative networks can be
found in Appendix C.

                                    Table 5: Facility Placement Scenarios
                     Scenario        Maximum Service Radius                 Facility Count
                     Baseline               70 miles                             319

                    One                    55 miles                               404
                    Two                    90 miles                               214
                    Three                 120 miles                               135
                    Four                  150 miles                               96
                    Source: OIG Model Analysis

Second Step: Transportation Distribution Strategy

Having established a baseline, the model’s second critical step is selecting the
transportation distribution strategy, or the rules used to dictate how mail is routed
between each processing plant from origin to destination. Figure 11 describes the three

20
   The facility placement algorithm used a maximum service radius per plant in selecting the geographic point serving
the greatest number of 3-digit ZIP Codes. The algorithm placed a facility at that chosen point and removed those 3-
digit ZIP Codes from further consideration. The algorithm repeated this process until a facility covered every 3-digit
ZIP Code.
21
   We modeled the continental United States and did not include Alaska, Hawaii, and Puerto Rico.


                                                          14
U.S. Postal Service Office of Inspector General                                                           July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                      RARC-WP-11-006


distribution strategies included in the analysis. The baseline network used a pure
consolidation (hub-and-spoke) distribution strategy, which routes mail through
consolidation hubs. In addition to the baseline hub-and-spoke distribution strategy, the
model also evaluated two alternative strategies — shortest path, in which mail is sent
using the shortest distance surface route between facilities, and hybrid consolidation,
which is similar to the Postal Service’s current strategy and is a combination of shortest
path and hub-and-spoke, which allows mail to bypass hubs and exchange directly with
processing facilities. Plants are connected to one another regionally when there is
sufficient mail volume between them to create their own transport links, and each plant
is connected to one or more consolidation centers. Additional information about the
distribution strategies can also be found in Appendix C.

                        Figure 11: Alternative Distribution Strategies Analyzed



                                                                       Pure Consolidation
                          Shortest Path                                 (Hub-And-Spoke)
                 Mail is sent by the shortest surface                   Facilities are classified as
               route with no leg exceeding 500 miles.            consolidators (hubs). All mail is routed
               Air transport is used only if the surface        through consolidation hubs (maximum
                     route will not meet the service            of 2) from origin to destination. No mail
                                 standard.                           is exchanged directly between
                                                                          processing facilities.




                                             Hybrid Consolidation
                                           Incorporates elements of pure
                                       consolidation and shortest path. Some
                                         mail is directed to hubs, but nearby
                                         processing facilities (less than 500
                                          miles) would also exchange mail
                                         directly, thereby bypassing hubs.



Source: OIG Model Analysis

To determine which facilities would act as consolidation hubs in the baseline model, a
similar radius-based approach was used to select a subset of the facilities for promotion
to hubs. For a chosen consolidation radius the same type of process was used to select
particular plants for promotion based on the number of 3-digit ZIP Codes covered within
the consolidation radius ranging from 400 to 800 miles. This promotion process
proceeded until every ZIP Code was covered by at least one hub. In addition to
consolidation activities, these hubs also perform the same mail processing activities as
non-hub plants. The baseline network promoted plants to hubs using a 400-mile service
radius. Using the hub-and-spoke transportation distribution strategy, Figure 12 presents




                                                           15
U.S. Postal Service Office of Inspector General                                                       July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                  RARC-WP-11-006


the baseline network with a total of 319 facilities of which 22 facilities function as
consolidation hubs.22

Figure 12: Baseline Network with a total of 319 Facilities (70-Mile Service Radius), of which 22 are
                        Consolidation Hubs (400-Mile Service Radius)




      297 P&DCs 
         22 P&DCs/Consolidation Hubs 


Source: OIG Model Analysis

Third Step: Impact on Cost and Service

The model calculated estimated mail processing and transportation cost23 and service
performance for combinations of facility placement and transportation distribution
strategy. Hence, the model’s third critical step was applying projected mail volumes,
mail processing and transportation costs, and incorporating the service standards. The
framework used FY 2020 mail volume forecasts of 145 billion pieces, which represents
almost 97 percent of projected mail volume.24

The total estimated network cost was computed as an aggregate of both transportation
and mail processing costs for each network configuration. It is important to note that we
did not attempt to capture all costs within the model. The purpose of estimating network
costs was to allow for relative, not absolute, apple-to-apple comparisons between
various alternative network configurations within the context of the modeling. Service
performance was defined as the percentage of mail that met its current ZIP Code-to-ZIP

22
   The consolidation hub selection process used a maximum consolidation service radius in selecting the existing
facility serving the greatest number of 3-digit ZIP Codes. The process “promoted” a facility to a hub and removed
those 3-digit ZIP Codes from further consideration. The process was repeated until a hub covered every 3-digit ZIP
Code. The remaining non-consolidation facilities were then assigned to their nearest hub to form a classical hub-and-
spoke network.
23
   Mail processing cost estimates are based on workload, incoming, outgoing, and support workhours, and postal
labor rates. Transportation cost estimates are based on workload, surface costs, and air costs. Modeled cost
estimates will naturally differ from total postal accrued costs; however, modeled cost estimates allow for relative
“apple-to-apple” comparisons between alternative network configurations included in the analysis.
24
   The analysis excluded certain mail products, including parcels, so the framework evaluated a subset of the total
volume forecast of 150 billion pieces for FY 2020.


                                                         16
U.S. Postal Service Office of Inspector General                                                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                   RARC-WP-11-006


Code service standard. The analysis computed the performance of alternative scenarios
on cost and service compared to the modeled baseline of 319 facilities of which 22 are
consolidation hubs, and a hub-and-spoke transportation distribution strategy. Appendix
C presents a more detailed discussion of the data and service standards.

Model Results: Significantly Fewer Facilities Needed

Based on the model analysis and balancing cost differences with service impacts, we
selected a preferred network with a total of 135 mail processing facilities, of which 15
are consolidation hubs, employing a hybrid transportation distribution strategy. This
would match future volume workload and reduce net processing and transportation
costs. It would also meet or exceed existing service performance for all mail, except for
eight percent of non-presorted Priority Mail (less than a few hours delay on average).
The impact on service for non-presorted Priority Mail is arguably marginal and, if not
mitigated by operational improvements, may be an acceptable tradeoff for significant
cost reductions. Table 6 presents a summary of model results and detailed results can
be found in Appendix D.

                                     Table 6: Summary of Model Results
                                 Number of Number of                        Net Cost          Service
                 Scenario         Facilities Hubs     Distribution Strategy Difference       Impacted
             Baseline               319       22     Hub & Spoke                 -                       -

             Preferred              135          15     Hybrid Consolidation       -9%        Priority Mail
             No Service Impact      214          17     Hybrid Consolidation       -7%               None
             Lowest Cost             96          11     Hybrid Consolidation      -11%            Several
            Source: OIG Model Results

Ignoring implementation costs, the net mail processing and transportation costs for the
selected preferred network would be $2 billion25 less per year than the baseline. Figure
13 presents a map of the facility and consolidation hub placement. Again, the map
represents hypothetical facility locations. Detailed cost calculations can be found in
Appendix D.




25
  The $2-billion cost difference would vary based on the net impact of assumptions, such as the efficiency of the
baseline network.


                                                         17
U.S. Postal Service Office of Inspector General                                          July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                     RARC-WP-11-006

        Figure 13: Preferred Network – 135 Facilities (120-Mile Service Radius) of which, 15 are
                            Consolidation Hubs (500-Mile Service Radius)




        120 P&DCs 
            15 P&DCs/Consolidation Hubs 


Source: OIG Model Results


Key Model Observations

The results illustrate the clear tradeoff between network size, cost, and service
performance. The selection of a target network size therefore depends on the desired
level of cost reduction and tolerance for service degradation. Model results reflect the
decline in net processing costs and transportation costs as the service area expands.
The model confirms that the Postal Service should pursue its current hybrid
consolidation transportation distribution strategy, which combines a hub-and-spoke
distribution strategy with the shortest path. The Postal Service can lower net costs by
consolidating mail processing at central hubs to achieve economies of scale. The model
does not identify specific plant location or size. It assumes the Postal Service has the
flexibility to vary the size of the plants to accommodate local capacity.

        Impact on Mail Processing & Transportation Cost

              o There is a direct, significant relationship between mail processing costs
                and number of facilities. Processing costs decline substantially due to the
                economies of scale associated with having fewer facilities. Transportation
                costs are not significantly affected.

              o Changes in mail processing and transportation costs are not equivalent. In
                other words, when consolidating an oversized network, decreases in mail
                processing costs can be greater than increases in transportation costs.

              o This changing relationship between processing and transportation costs
                presents a strategic opportunity for the Postal Service to manage its cost
                structure. Processing costs are driven by labor costs that are traditionally


                                                    18
U.S. Postal Service Office of Inspector General                                  July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network             RARC-WP-11-006


                structural in nature and less responsive to local management initiatives.
                Transportation costs are driven by procurement contracts that should
                provide management more flexibility to control long-term costs.

       Impact on Service Performance

            o There is a direct, significant relationship between network size and service
              performance. As the network approaches one huge, centrally located
              plant, service performance would degrade significantly and would impact
              mail products with tighter service standards first.

            o Network consolidation does not impact performance as seriously for
              products with looser service standards. Appropriate network sizing,
              transportation, and intelligent processing could mitigate impacts to service.




                                                    19
U.S. Postal Service Office of Inspector General                                                                   July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                              RARC-WP-11-006


Conclusion
Due to its unique role and national presence, Postal Service consolidation efforts attract
significant attention. Over the last ten years, many outside parties have suggested the
Postal Service should rationalize its processing network. In response, the Postal
Service has published numerous plans outlining its approach to network rationalization.
Transformation Plans, Transformation Strategic Plans, and Annual Comprehensive
Statements highlight the need to transform the network and, in some instances, provide
progress on planned efforts made to achieve stated goals. Figure 14 presents a timeline
for selected network rationalization publications and Postal Service plans.
                   Figure 14: Timeline of Network Rationalization Publications & Plans




        Seizing
   Opportunity: The                                  Assessment of U.S.                         Restructuring the
   Report of the 2001                                  Postal Service                           U.S. Postal Service
    Mailing Industry                                  Future Business                               to Achieve
      Task Force                                           Model                                Financial Viability
 Mailing Industry Task Force                                GAO                                         GAO

            U.S. Postal Service Transformation Plan                       Strategic
            Transformation Plan Progress Report                           Transformation Plan
                                                                          2006-2010
                        Transformation Plan             Strategic
                                                        Transformation Plan
                        Progress Report
                                                        2006-2010
                           Embracing the                                                                   U.S. Postal Service-
                         Future: Making the                         Postal                                    Strategies and
                         Tough Choices to                      Accountability and                          Options to Facilitate
                         Preserve Universal                    Enhancement Act                              Progress Toward
                            Mail Service                            of 2006                                 Financial Viability

                        President’s Commission                     Legislation                                        GAO
                        of the U.S. Postal Service

        2001        2002         2003        2004          2005        2006      2007    2008         2009       2010

Source: OIG Analysis

In spite of recommendations, progress, and outreach efforts, the Postal Service faces
challenges and obstacles in rationalizing its mail processing and transportation
networks. In 2003, the President’s Commission noted that it will take the flexibility of all
who have an interest in the Postal Service’s success — employees, mailers,
consumers, partners, and politicians – to allow it to take full advantage of efficiency
opportunities. While the Postal Service perceives some stakeholders to be impediments
in its ability to rationalize the network, the experience of foreign posts and the private
sector as well as the statements of the stakeholders themselves suggest the Postal
Service can best succeed by actively engaging stakeholders in the planning phase –
before any individual facility is identified for closure. A first step is to present a
comprehensive plan that is based on an objective and transparent approach similar to



                                                                  20
U.S. Postal Service Office of Inspector General                                                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                   RARC-WP-11-006


one presented in this paper. The public policy prescription can consider the following
items:

          Present a comprehensive plan that provides the target number of plants,
           transportation distribution strategy, and net operational cost differences.

          Align the workforce to the future network through attrition. While facility
           consolidations will affect the labor force, such changes can be made without
           significantly impacting jobs. Over the next ten years, the Postal Service
           anticipates that 300,000 employees, or over half of its current workforce, will be
           eligible to retire. If accomplished at a sensible pace, restructuring with significant
           savings can occur without layoffs.

          Increase the focus on transportation and transform to a world-class logistics
           network. The Postal Service has the flexibility to manage contract transportation
           costs more easily than mail processing labor costs.

          Focus on service consistency versus speed. Most mailers are more interested in
           knowing when the mail will be delivered, not how quickly it will be delivered.26

          Reach out to stakeholders, including unions, mailers, and public policy leaders, in
           network consolidation planning and implementation efforts. Appendix E provides
           a summary of our interviews with mailing industry stakeholders.




26
     Most customers we interviewed preferred consistency over speed. See Appendix E for details.


                                                          21
U.S. Postal Service Office of Inspector General                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network   RARC-WP-11-006




                                          Appendices




                                                    22
U.S. Postal Service Office of Inspector General                               July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network          RARC-WP-11-006



Appendix A              Mail Flow Diagram

The Postal Service mail processing function is very complex and no two plants operate
exactly the same. Figure 15 highlights the flow of mail through the mail processing and
transportation network.

                                     Figure 15: Mail Flow Diagram




Source: GAO and Postal Service




                                                    23
U.S. Postal Service Office of Inspector General                                             July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                        RARC-WP-11-006



Appendix B               Mail Processing Facilities

The mail processing network processed 565 million pieces of mail a day in FY 2010 and
is currently comprised of 260 P&DCs, 21 NDCs, and 247 other processing facilities that
include customer service facilities, annexes, and LDCs. Table 7 provides the type and
number of mail processing facilities from FY 2004 through FY 2010.

                 Table 7: Postal Mail Processing Facilities FY 2004 through FY 2010

 Processing Facilities                           2004    2005      2006   2007   2008     2009     2010
 Process and Distribution Centers                 269     269       269    269    269      268      260
 Customer Service Facilities                      195     195       195    195    195      195      164
 Network Distribution Centers (formerly BMCs)      21      21        21     21     21       21       21
 Logistics and Distribution Centers                11      11        11     14     14       14       13
 Annexes                                           66      66        66     66     64       61       51
 Surface Transfer Centers                          14      14        17     14     20       20       11
 Air Mail Centers                                  79      79        77     29     20       12        1
 Remote Encoding Centers                           15      15        12     10      6        3        2
 International Service Centers                      5       5         5      5      5        5        5
 Total Processing Facilities                      675     675       673    623    614      599      528
Source: Postal Service Annual Reports

NDCs were formerly BMCs. The BMC network was implemented in the 1970s to
process Parcel Post, Bound Printed Matter, Media Mail, Standard Mail (catalogs,
parcels, and bulk mail), and Periodicals. Originally, nearly all customer mail volume was
entered at origin locations, which made BMC facility and transportation utilization
efficient. The introduction of mail preparation and transportation workshare discounts
allowed mailers to bypass BMC originating operations and enter mail at destination
postal facilities. In 2007, the Postal Service proposed outsourcing the BMC network.
Management issued a draft request for proposal in July 2008; however, because of the
large drop in BMC network product volume, the Postal Service could not project
volumes for the statement of work. Thus, in February 2009, management decided to
terminate this initiative and re-engineer product flows through the BMC network by re-
engineering them into the NDC network.




                                                    24
U.S. Postal Service Office of Inspector General                                   July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network              RARC-WP-11-006



Appendix C               Model Framework

This appendix contains a more detailed description of the mail processing and
transportation simulation model. The modeling goal was to develop an objective and
transparent simulation of mail processing and transportation network processes to
determine the performance of hypothetical network designs using projected FY 2020
mail volumes. The model also evaluated the impact of various network distribution
strategies on cost and service. The objective was not to precisely replicate the real-
world postal network, but rather, to provide a framework for testing the performance of
hypothetical network designs and thereby informing the debate over possible future
changes to the mail processing and transportation network. To manage the complexity
of the simulation, the following describes the modeling scope.

       The model simulated projected 2020 domestic mail volumes for First-Class Mail
        and Standard Mail letters and flats. Simulated mail flows originated and
        destinated within the continental United States. Origin-destination mail volumes
        were aggregated at the 3-Digit ZIP Code level for 13 distinct mail categories
        differentiated by shape, class of service, and presort level. Mail volumes were
        assumed to be constant each day.

       For modeling efficiency, the various pre-sorting, barcoding, and bundling
        operations that might be performed by mailers and consolidators were combined
        into a single, binary, “presorted” attribute. The processing costs for all mail
        designated as presorted were discounted relative to their single-piece
        equivalents, but the specific details of the presort operation were not modeled.

       The model abstracted the internal details of mail processing plant operations
        such as numbers of machines, operator shift schedules, etc. These internal
        details were distilled down to workhour regression equations that were used to
        estimate processing costs for various operations based on mail volumes.

       Surface transportation costs were assumed to be dependent only on the physical
        mail size, travel distance, and a cost per cubic-foot-mile factor. Air transportation
        costs were dependent on mail weight, class, travel distance, and a cost-per-
        pound-mile factor. A higher cost-per-pound-mile rate was used for Priority Mail
        and Express Mail air. The model did not take into account the number of physical
        trucks or planes that might be required to carry out the transportation operations.
        Transportation capacity was assumed to be unconstrained and available on-
        demand.

       Mail processing and transportation operations were not modeled for the
        Destination Delivery Unit (DDU)-level and below.

The following sections describe the model in more detail.




                                                    25
U.S. Postal Service Office of Inspector General                                                       July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                  RARC-WP-11-006


Estimating 2020 ZIP-to-ZIP Volumes

As no comprehensive source of 3-digit ZIP-to-ZIP volume data could be obtained,27 a
population-based method was used to obtain ZIP-to-ZIP volume estimates, with
adjustments made to account for drop shipping. Actual FY 2009 national volumes were
used as the starting point. These volumes were then projected forward using the
estimated Compound Annual Growth Rates in Table 8 to obtain volume estimates for
year 2020.

                               Table 8: Estimated 2020 Mail Growth Rates28

                                        Compound Annual
                Class of Mail             Growth Rate                           Source
             First Class Mail                -4.0%                             BCG Study
             Standard Mail                   0.4%                              BCG Study
             Periodicals                     0.0%                              Estimated
             Package Services                5.0%                              Estimated
             Express Mail                    5.0%                              Estimated
             Priority Mail                   5.0%                              Estimated
             Source: OIG Analysis of BCG Study Mail Volume Estimates

The estimated 2020 volumes were then divided into drop shipped and non-drop shipped
portions for the applicable mail types. All mail drop shipped to the DDU level was
removed from consideration entirely as DDU-level operations were not modeled. Mail
drop shipped to the Destination NDC/DSCF level was modeled as entering the network
at the destination facility, and non-drop shipped mail was modeled as entering the
network at its origin ZIP Code. Apart from the drop ship percentages listed below, 28
percent of First-Class Mail29 was assumed to be “turnaround” mail, i.e., mail destinating
in the same ZIP Code from which it originated. Table 9 below outlines the drop ship
percentages.
                                  Table 9: FY 2009 Drop Ship Percentages


                                                              Total Drop
                                                                 Ship    DNDC/DSCF               DDU
              Class of Mail         Shape       Presort       Percentage   Level                 Level
           Standard Mail           Letters        Yes            95%        95%                    NA
           Standard Mail           Flats          Yes            98%        38%                   60%
           Periodicals             Flats          Yes            71%        70%                    1%
           Package Services        Flats          Yes            79%        78%                    1%
           Source: Postal Service Billing Determinants used in the FY 2009 Annual Compliance Report

27
   The Postal Service indicated that they could not provide the OIG with origin/destination volume data because the
data they had were old, inaccurate, and unusable.
28
   Boston Consulting Group study, Envisioning America’s Future Postal Service. Selected Slides: http://www.Postal
Service.com/strategicplanning/_pdf/BCG_Selected_Slides.pdf
29
   An average of 28 percent is plausible because postal data indicate about 40 percent of single-piece First-Class
Mail and about 15 percent of presorted First-Class Mail originates and destinates at the same SCF.


                                                         26
U.S. Postal Service Office of Inspector General                                  July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network             RARC-WP-11-006


The ZIP-to-ZIP volumes were computed by first apportioning the non-drop shipped and
non-turnaround volumes among each origin-destination ZIP-to-ZIP pair in proportion to
the product of the origin-destination populations. The drop shipped and turnaround
portions were then added to each ZIP Code’s estimated turnaround mail volume, i.e.,
mail originating and destinating in the same ZIP Code, in proportion to that ZIP Code’s
population. Lastly, these estimated yearly ZIP-to-ZIP volumes were converted to daily
equivalents for use in the model. This volume estimation approach provided a
necessary approximation given the scarcity of available data.

Establishing the Baseline and Alternate Scenarios

A green field approach was used for locating the facilities in the hypothetical networks
that were tested. A geometric facility placement approach was used that assumed each
processing facility could service all of the ZIP Codes within a specified radius. This
service radius variable was used to indirectly alter the number of facilities in the
network, i.e., a larger service radius produced a network with fewer facilities and vice
versa. For all purposes, a ZIP Code was assumed to be located at its geographic
centroid. Thus, if a ZIP Code centroid was within a facility’s service radius then the
entire ZIP Code was considered to be covered by that facility.

For a specified service radius, the facility placement algorithm worked as follows: first, a
ZIP Code centroid was chosen such that the greatest number of ZIP Codes fell within
the specified service radius of the chosen point. Ties were broken using the distance-
weighted populations of the covered ZIP Codes. In other words, if multiple candidate
locations covered the same number of ZIP Codes, the algorithm favored the point
closest to high-population areas. A facility was placed at the chosen point, and its
covered ZIP Codes were removed from further consideration. This process was
repeated until every ZIP Code was served by a facility. Figure 16 shows an example of
a network topology generated using this approach and a 150-mile maximum service
radius resulting in 96 facilities.




                                                    27
U.S. Postal Service Office of Inspector General                                      July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                 RARC-WP-11-006

          Figure 16: Example Network Topology of 96 Facilities (150-Mile Service Radius)




Source: OIG Model Analysis

We created a baseline of processing centers located on the map throughout the
continental United States, regardless of the current location of processing plants.
Defining a baseline network provided a common reference point for interpreting the
relative performance of all other network alternatives tested. We attempted to define the
baseline network in a way that loosely approximated the real-world network in terms of
size, but in most other respects there are differences. The baseline network was
generated using a maximum facility service radius of 70 miles, which resulted in a
network of 319 facilities. A pure consolidation (hub-and-spoke) distribution strategy was
used to control mail routing.

Having established a baseline we then explored the range of network sizes to determine
its effect on network performance with a goal of selecting an optimal number of facilities.
To do so, we generated several alternative network sizes based on different maximum
service radii ranging from 55 miles to 150 miles. All results were compared against
those of the baseline network size of 319 facilities. The alternative network scenarios
tested are shown in Figure 17.




                                                    28
U.S. Postal Service Office of Inspector General                                                          July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                     RARC-WP-11-006

                                  Figure 17: Alternative Network Scenarios




Source: OIG Model Results

To determine which facilities would act as consolidation hubs, a similar radius-based
approach was used to select a subset of the facilities for promotion to hubs. For a
chosen consolidation radius the same type of process was used to select particular
plants for promotion based on the number of ZIP Codes covered within the
consolidation radius ranging from 400 to 800 miles. This promotion process proceeded
until every ZIP Code was covered by at least one hub. Each of the remaining non-
consolidation facilities (spokes) was then assigned to its nearest hub to form a classical
pure consolidation (hub-and-spoke) network distribution.

Selecting a Distribution Strategy

Our study explored alternative network designs and distribution strategies in order to
provide guidance for future processing and transportation network changes. For
example, we explored the effectiveness of pure consolidation (hub-and-spoke) style
distribution versus the shortest path distribution. To evaluate alternative designs, we
defined three distribution strategies that dictated the rules for how mail volumes were
routed through the network from origin to destination. The three distribution strategies
tested were shortest path, pure consolidation (hub-and-spoke), and hybrid
consolidation. Each strategy is described below.

     1. Shortest Path: Mail was sent via the shortest-distance surface route, with a
        constraint that no single surface leg could exceed 500 miles. The shortest paths
        were computed using the standard Dijkstra algorithm.30 Direct air transport was

30
  The Dijkstra algorithm is often used in routing. For a given source vertex (node) in a graph, the algorithm finds the
path with the lowest cost (i.e., shortest path) between that node and every other node. It can also be used for finding


                                                          29
U.S. Postal Service Office of Inspector General                                                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                   RARC-WP-11-006


         used only for non-standard class mail if the shortest surface route would not
         meet the ZIP-to-ZIP service standard. Thus, in this strategy, service standard
         attainment was essentially enforced for non-standard class mail.

    2. Pure Consolidation (Hub-and-Spoke): The facilities in the network were
       classified as either consolidators (hubs) or non-consolidators (spokes). Each
       spoke was assigned to its nearest hub, and all mail transported to and from the
       spoke occurred through its assigned hub, i.e., no direct spoke-to-spoke transport
       was possible. Mail that originated and destinated at the same facility was simply
       handled locally by that facility and not sent to a hub. Mail with a different origin
       and destination was first sent by surface transport from the originating facility to
       the hub (unless the origin was itself a hub). Once at a hub, if the mail’s
       destination facility was a spoke served by the hub, the mail was sent down to it.
       Otherwise, the mail was sent directly to the hub that served the destination
       facility using air transport if the mail was non-standard class and the hub was
       greater than 500 miles away, or otherwise using surface transport. It was implicit
       in this strategy that mail could travel through a minimum of one facility, or up to a
       maximum of four (an origin spoke, origin hub, destination hub, and destination
       spoke).

    3. Hybrid Consolidation: This strategy combines the pure consolidation strategy in
       which long-haul mail (greater than 500 miles) was routed through central
       consolidation hubs with the shortest path strategy that allows shorter distance
       mail to be transported directly between the origin and destination facilities,
       bypassing the hubs.

Mail Types and Attributes

To efficiently represent mail volume flows, 13 distinct mail types were defined based on
mail class/product, shape, and presort level. Other associated attributes included
pounds-per-piece and cubic-foot-per-piece. Table 10 shows the mail class and the
associated attributes. In some cases, multiple products were combined into a single
mail class.




costs of shortest path from a single node to a single destination node by stopping the algorithm once the shortest
path to the destination node has been determined.


                                                          30
U.S. Postal Service Office of Inspector General                                                                               July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                                          RARC-WP-11-006

                                                    Table 10: Mail Types Modeled
                                                               Presort        FY 2009          FY 2020          Pounds Per     Cubic Foot
           Mail Class & Mail Products               Shape       Level         Volume           Volume             Piece         Per Piece
   First Class Mail                                  Letters     No           31,633,220,000   20,189,565,156        0.02845        0.00176
      1C Single Piece Letters/Postcards
   First Class Mail                                  Letters    Yes           47,933,717,000   30,593,183,449        0.03965        0.00224
      1C Non-automation Presorted Letters
      1C Auto - Non-carrier Route Letters
      1C Non-automation Presorted Cards
      1C Auto Cards - Non-carrier Route Cards
   Standard Mail                                     Letters    Yes           50,218,327,800   52,472,660,924        0.05388        0.00256
      Standard Automation Letters
      Standard Non-automation Letters
      Standard ECR Basic Letters
      Standard ECR High Density Letters
      Standard ECR Saturation Letters
   Standard Mail                                     Letters     No            9,311,881,600    9,729,897,971        0.05467        0.00259
      Standard Automation Letters
      Standard Non-automation Letters
   First Class Mail                                  Flats       No            1,718,697,600    1,096,940,406         0.2254        0.00999
      1C Single Piece Flats
   First Class Mail                                  Flats      Yes            1,145,798,400     731,293,604         0.16071         0.0068
      1C Non-automation Presorted Flats
      1C Auto - Non-carrier Route Flats
   Standard Mail                                     Flats      Yes           18,054,882,150   18,865,377,454        0.21801        0.00781
      Standard Automation Flats
      Standard Non-automation Flats
      Standard ECR High Density Flats
      Standard ECR Saturation Flats
      Standard ECR Basic Flats
   Standard Mail                                     Flats       No            2,337,952,500    2,442,904,696        0.26531         0.0095
      Standard Automation Flats
      Standard Non-automation Flats
   Periodicals                                       Flats      Yes            7,953,715,000    7,953,715,000        0.38462        0.01385
      Within County Periodicals
      Outside County Periodicals
   Package Services                                  Flats      Yes             191,039,200      326,741,863         1.39174        0.05813
      Package Services Bound Printed Matter Flats
   Package Services                                  Flats       No              47,759,800       81,685,466         1.39174        0.05813
      Package Services Bound Printed Matter Flats
   Express Mail                                      Flats       No              47,015,000       80,411,605         0.82203        0.02965
   Priority Mail                                     Flats       No             395,035,000      675,643,908         0.82203        0.02965

   Source: Postal Service FY 2009 Revenue, Pieces & Weight Reports and OIG Model Analysis

As depicted in Table 10 above, FY 2009 mail volumes for each mail class modeled
were taken to be the sum of the volumes of its constituent mail product. To obtain a
single pounds per piece and cubic-foot-per-piece value for each mail class, a volume-
weighted average of the pounds per piece and cubic-foot-per-piece values for its
constituent mail products was used.

Cost Modeling

As stated, the total estimated network cost associated with a particular network
configuration was computed as an aggregate of both transportation and mail processing
costs. It is important to note that we did not attempt to capture all costs within the
model. The purpose in estimating network costs was to allow for relative apple-to-apple
comparisons between various alternative network configurations within the context of
the modeling. The performance of alternative network configurations was measured in


                                                                         31
U.S. Postal Service Office of Inspector General                                                             July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                        RARC-WP-11-006


total network cost and service performance. The total network cost included costs
associated with transportation and mail processing operations. The model uses the total
pieces handled (TPH) productivity to evaluate the processing and transportation cost of
each network alternative. The mail volumes were assumed to be constant from day-to-
day, which allowed the network volumes flowing through the network to reach a steady,
constant state by the end of a two-week period. To take advantage of this, daily
performance metrics were collected based on the last day of the simulation.

Transportation Costs

Transportation costs were accrued for all movement of mail from one processing facility
to another and between processing facilities and origin-destination ZIP Codes. The
estimation of transportation costs was dependent on the mode of transportation.
Surface transportation costs were assessed based on standard rates per cubic-foot-mile
(CFM) for inter-facility and intra-facility-area transport, while air transportation costs
were computed based on weight, distance, and class of service. One air transportation
rate was applied to Express Mail and Priority Mail and a lower air rate was applied for all
other classes of mail. The assumed rates for surface and air transportation are provided
in Table 11.

                               Table 11: FY 2009 Transportation Cost Factors31

                   Transportation Mode                        Rate                     Units
           Surface (Intra-Facility Area)                    $0.54490       $ per cubic-foot-leg (CFL)
           Surface (Inter-Facility)                         $0.00179       $ per cubic-foot-mile (CFM)
           Air (Priority Mail and Express Mail)             $0.00080       $ per pound-mile
           Air (All Other)                                  $0.00060       $ per pound-mile
           Source: OIG Model Analysis of Postal Service Data

For each transportation segment, the total weight or cubic volume of the shipment was
computed using per-piece weight and volume factors derived from the Fiscal Year 2009
Revenue, Pieces, and Weight (RPW) report. These factors were multiplied by the
number of items of each mail type included in the shipment, summed to determine the
total weight or volume, and then multiplied by the appropriate cost factor above to
obtain a cost. For surface transportation, separate cost factors were used depending on
whether the transport was “Intra-Facility Area” (i.e., from a ZIP Code to a facility or vice
versa, considered one leg), or “Inter-Facility” – (i.e., long-haul transport from one
processing facility to another). Surface mileage was estimated as the great-circle
distance between the origin and destination multiplied by a constant factor of 1.22 to
adjust for road network circuity. Past transportation research has found circuity factors
of 1.20 to 1.23 to be appropriate.32




31
   Surface rate based on FY 2009 total transportation costs for letters and flats divided by total letters and flats
capacity. Air rates are rough estimates developed through internal cost analysis by the OIG.
32
   G. Newell, Traffic Flow on Transportation Networks. (Cambridge, Mass.: MIT Press, 1980).


                                                            32
U.S. Postal Service Office of Inspector General                                             July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                        RARC-WP-11-006


Processing Costs

Estimated mail processing costs were accrued for each facility based on the incoming
and outgoing workloads being handled by that facility. Workload was measured in
estimated workhours, which was a function of the volume and composition of the
processed mail. Estimated total daily mail processing costs were calculated as follows.

       Each processing operation at a facility incurs a number of workhours depending
        on the volume and composition of the processed mail.

       Workhours are estimated using regression equations based on real-world data.

       Workhours are scaled by an adjustment factor to account for mailhandler support
        functions and all non- Management Operating Data System (MODS) office
        workhours.

       Estimated workhours is multiplied by a labor rate to obtain total processing cost.

Historical MODS office data was used to fit regression equations relating workhours to
monthly TPH for the possible combinations of mail processing operations and mail
shapes. The chosen functional form of the regression equation was:

                             ln                  ln                ln

Table 12 provides a list of the estimated processing cost regression and other
parameters, (Abbreviation note: OP = Outgoing Primary, IP = Incoming Primary, IS =
Incoming Secondary).

                                  Table 12: Processing Cost Parameters
                                                                                                 Presort
                                     Volume                                      Ratio of TPH    Discount
   Operation       Auto/Manual      Allocation     a         b1          b2       to Volume       Factor
OP Letters      Auto (LDC11)            97.70% -13.52288     1.71195    -0.02693       1.01053
                                                                                                 0.31734
OP Letters      Manual (LDC14)           2.30%    3.82252   -0.13325     0.02694       1.00404
IP Letters      Auto (LDC11)            85.80%    -9.0739    1.06788    -0.00389        1.1037
                                                                                                 0.20342
IP Letters      Manual (LDC14)          14.20%   -2.75869    0.72258    -0.00117       1.20805
IS Letters      Auto (LDC11)            99.20%   -13.7713       1.782    -0.0294       3.41988
                                                                                                 0.20342
IS Letters      Manual (LDC14)           0.80%   -0.50748    0.71085    -0.01413       1.50808
OP Flats        Mech. (LDC12)           85.80%    0.71619    0.25677     0.00652       1.00456
                                                                                                 0.58571
OP Flats        Manual (LDC14)          14.20%     8.8947   -1.31975     0.08752       1.01267
IP Flats        Mech. (LDC12)           82.90%    4.34793   -0.61467     0.05372       1.16743
                                                                                                 0.37546
IP Flats        Manual (LDC14)          17.10% -13.43325     2.31107    -0.05797       1.10727
IS Flats        Mech. (LDC12)           96.40%   -6.86599    1.10359    -0.01149       1.57962
                                                                                                 0.37546
IS Flats        Manual (LDC14)           3.60%   -8.69727    1.78952    -0.04726       1.61587
Source: Statistical Analysis of Postal Service MODS-Office Data




                                                      33
U.S. Postal Service Office of Inspector General                                                   July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                              RARC-WP-11-006


Once per simulated day, costs were accrued for the processing operations performed
within each facility as follows. The appropriate volume allocation percentages shown
above in Table 12 were used to split the shape-specific, daily volumes between
automated and manual processing, each of which had a distinct cost profile. These daily
volumes were multiplied by 30 to obtain monthly volume equivalents as required by the
regression equations. Next, the automated and manual volumes were converted into
TPH values using the corresponding TPH-to-Volume ratios, and these TPH values were
substituted into the workhours regression equation along with the appropriate
coefficients a, b1, and b2 from the table above to compute the estimated workhours for
each operation.

If the mail type being processed was a presorted type, then the computed workhours
were adjusted by multiplying by the presort discount factor in the last column of the
table above. The result was multiplied with an adjustment factor of 2.7483 to account for
all MODS-Office Clerk-Mail handler support functions and all non-MODS-Office
processing labor. Finally, the resulting monthly workhours for each operation were
aggregated, divided by 30 to obtain a daily estimate of workhours, and multiplied by the
FY 2009 full processing labor and benefit rate of $40.0944/hour to obtain a total daily
processing cost for the facility.

Service Performance

In addition to total cost, network performance was also measured in terms of expected
service performance, which was defined as the percentage of mail that met the
published ZIP-to-ZIP service standard for each mail class. Express Mail is not included
as part of the Modern Service Standards, so its on-time service performance was not
modeled. Service performance was defined by mail class as the percentage of mail
which arrived “on-time” according to the published ZIP-to-ZIP service standard for that
mail class.

The service performance metric was computed in the following way. All new mail began
its simulated life with an assigned number of days allowed before it would be
considered late. This value was the published Modern Service Standard33 for mail of
that class, origin, and destination. Shortly before new mail was generated each day, the
simulation ran a maintenance routine that decremented the number of days left for
every piece of mail in the system. Any pieces of mail in the system whose days left
value dropped below zero before being delivered (and thus exiting the system) were
flagged as late and were counted against the service performance score for mail of that
class.

This construct naturally depended on the timing of mail arrival, processing, and
transportation activities within the simulation. The modeling assumptions associated
with the timing of these activities can be summarized as follows:

          5 p.m. - New mail entered the system at each origin ZIP Code and began ground

33
     Modern Service Standards: http://ribbs.Postal Service.gov/index.cfm?page=modernservice


                                                         34
U.S. Postal Service Office of Inspector General                                                      July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                 RARC-WP-11-006


         transport to the nearest processing facility at an estimated travel speed of 30mph
         (to account for frequent required stops for pick-ups along the way).

        8 p.m. - The Critical Entry Time (CET) at each processing facility. Any mail that
         arrived after the CET was held over until the next day’s processing.

        Midnight34 – Mail processing ended and all processed mail began transport to its
         next destination.

        Various Times – Transported mail arrived at its intended destination after a
         travel delay based on the distance and mode of travel. Surface transport
         assumed a travel speed of 50 mph, and air travel assumed 500 mph.




34
  The choice of 8 p.m. and midnight as the critical entry and processing end times was based on a sampling of real-
world facility operations schedules.


                                                         35
U.S. Postal Service Office of Inspector General                                                        July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                   RARC-WP-11-006




Appendix D              Model Results and Cost Difference Calculation

The primary goal of the modeling effort was to explore alternative network design
principles by evaluating the performance of hypothetical network configurations. This
was done by varying the networks along two principal dimensions: size and distribution
strategy. The effect of changing these variables was measured in terms of expected
total network cost and impact on service performance. To make the results more
interpretable, we defined and validated a baseline network configuration against which
all other alternative network configurations were compared. It is apply the modeling
analysis to identify the best network alternatives based on different tolerances for
service degradation.

Table 13 provides the model results for the three lowest-cost network configurations
based on different tolerances for service performance degradation. Service
degradations are depicted in red and except for the eight percent of non-presorted
Priority Mail (less than a few hours delay on average), most mail in the preferred option
meets the performance standard. All cost metrics are shown as percentages relative to
the baseline network costs and all on-time percent metrics are shown in their raw form.
These alternatives provide network configuration options for minimizing total processing
and transportation costs subject to tolerance for service degradation.

                            Table 13: Results of Various Model Scenarios
                                                                                 No Service
                                                                     Preferred               Lowest Cost
                                                                                   Impact
                                             Distribution Strategy    Hybrid        Hybrid      Hybrid
                                             Total # of Facilities     135           214          96
                       INPUTS                      # of Hubs            15           17           11
                                             Consol. Radius (mi)       500           500         600
                                             Service Radius (mi)       120           90          150
                                                  Air Cost ($)           -3.8%         -3.1%         -3.2%
                                               Intra-SCF CFM             82.9%         38.9%        136.4%
                                                Intra-SCF CFL             0.0%          0.0%          0.0%
                                Transport
                                               Inter-SCF CFM             -1.5%         -1.3%          3.0%
                       Costs
                                               Ground Cost ($)           -0.5%         -0.4%          1.0%
                                             Total Transport ($)         -2.6%         -2.1%         -1.7%
                                Processing   Processing Cost ($)        -12.9%         -9.7%        -16.8%
                                               Total Cost ($)            -9.2%         -7.0%        -11.3%
                                              1st Class Presorted        1.19%         2.64%        -0.04%
                                             1st Class Nonpresort        1.19%         2.63%        -0.04%
           OUTPUTS               Letters
                                                Standard Presort         0.00%         0.00%         0.00%
                                             Standard Nonpresort         0.00%         0.00%         0.00%
                                               Priority Nonpresort      -7.66%         4.17%       -19.25%
                      Percent                 1st Class Presorted        1.07%         2.15%        -0.04%
                      On-time                1st Class Nonpresort        1.18%         2.52%        -0.03%
                                                Standard Presort         0.00%         0.00%         0.00%
                                  Flats
                                             Standard Nonpresort         0.00%         0.00%         0.00%
                                               Periodical Presort        0.02%         0.03%        -0.02%
                                                Package Presort          0.00%         0.00%        -0.02%
                                             Package Nonpresort          0.00%         0.00%         0.00%
          Source: OIG Model Results



                                                       36
U.S. Postal Service Office of Inspector General                                    July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network               RARC-WP-11-006


Following are some observations can be derived from Table 13 above.

       There is a direct relationship between processing costs and number of facilities.
        Transportation costs are not affected significantly, but processing costs decline
        substantially due to the economies of scale associated with having fewer
        facilities.

       Reductions in network size have no significant effect on service performance
        until below 214 facilities, at which point both First-Class Mail and Priority Mail
        begin to suffer service degradation. Other mail classes exhibited no significant
        changes in service performance. The impact is relatively modest for First-Class
        Mail and more substantial for Priority Mail. The results illustrate the clear tradeoff
        between network size, cost, and service performance. The selection of a target
        network size therefore depends on the desired level of cost reduction and
        tolerance for service degradation. A network of 214 facilities achieves modest
        cost differences with no effect on service performance, while a network of 135
        facilities further reduces costs but with a slightly negative impact on service.

       The analysis indicated that a cost and service network of 214 facilities with 17
        consolidation hubs employing a hybrid consolidation distribution strategy would
        also match future mail volume demand and result in lower net costs without
        adversely impacting service.

       After determining a target network size of 135 to 214 facilities, we explored the
        tradeoffs between three alternative distribution strategies, shortest path, pure
        consolidation (hub-and-spoke), and hybrid consolidation. Consolidation resulted
        in higher transportation costs because mail must be transported through sparsely
        scattered consolidation hubs, increasing the required travel distances, but total
        costs were reduced through the economies of scale achieved by consolidated
        processing operations.

       Of the three alternative distribution strategies tested, we found the minimum cost
        distribution strategy to be hybrid consolidation, in which long-haul mail (greater
        than 500 miles) was routed through central consolidation hubs while shorter
        distance mail was transported directly between the origin and destination
        facilities, bypassing the hubs.

       Reducing the number of consolidation hubs to 15 yielded the greatest cost
        differences — a nine percent reduction in total cost versus the baseline scenario.

Table 14 provides the analysis used to identify the estimated annual cost differences for
the optimized network of 135 facilities of which 15 are consolidation hubs.




                                                    37
U.S. Postal Service Office of Inspector General                                                                       July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                                                  RARC-WP-11-006

                 Table 14: Annual Cost Differences Estimate: 135 Facilities with 15 Hubs
      Description                                                     Value                           Source
 1 Modeled Percentage Cost Differences
 2       Mail Processing                                              (12.9%) Model results
 3       Transportation                                                (2.6%) Model results
 4
 5 Mail Volume for Mail Types Modeled (Billions)
 6       FY 2009                                                  170.989 FY 2009 Revenue, Pieces, and Weight (RPW) Report
 7       FY 2020                                                  145.240 Boston Consulting Group (BCG) data
 8
 9 Mail Processing for Mail Types Modeled
 10      FY 2009 Mail Processing Cost (Billions)                  $ 10.441 FY 2009 Cost Segments and Components Report
 11      Volume Variability Factor                                     0.944 FY 2009 Cost Segments and Components Report
 12      Piggyback Factor                                              1.689 ACR2010 Library Reference USPS-FY10-24 (FY 2010
                                                                             Non-Operation Specific Piggyback Factors)
 13
 14 Transportation for Mail Types Modeled
 15      FY 2009 Domestic Air Transportation Cost (Billions)      $ 1.631 FY 2009 Cost Segments and Components Report
 16      Domestic Air Transportation Volume Variability Factor         0.998 FY 2009 Cost Segments and Components Report
 17      FY 2009 Highway Transportation Cost (Billions)           $ 1.758 FY 2009 Cost Segments and Components Report
 18      Highway Volume Variability Factor                             0.784 FY 2009 Cost Segments and Components Report
 19
 20 Annual Cost Differences (Billions)
 21      Mail Processing                                          $ (1.953) =[2]*[10]*(1+([7]/[6]-1)*[11])*[12]
 22      Transportation                                           $ (0.077) =[3]*([15]*(1+([7]/[6]-1)*[16])+[17]*(1+([7]/[6]-1)*[18]))
 23      Total                                                    $ (2.030) =[21]+[22]
Source: OIG Analysis

There are a number of reasons for differences in the overall cost between the model
and the actual postal network. First, this modeling effort begins with a green field
distribution of the processing facilities, in which facilities are spaced across the country
in roughly equal intervals. Not only does this affect the distances between facilities, but
it also dictates the necessary facility size to meet the associated mail volume demand.
Having more, larger plants in the network may play a role in the overall efficiency of the
modeled network.

An additional modeling assumption is one of an idealized network in which all of the
processing and transportation occurs at the roughly 300 facilities, which is intended to
be representative of the network of P&DCs and NDCs. The model does not account for
the dispersed, less efficient processing and mail handling that occurs at smaller facilities
and delivery units, which is difficult to quantify. Furthermore, the model does not include
costs for outgoing secondary and managed mail processing.35 For these reasons, the
modeled baseline mail processing costs tend to be lower than the actual costs incurred
by the Postal Service.



35
   A follow-on, more operations-detailed study could analyze a more complete network that includes these processing
schemes. Including these processing schemes would increase any cost differences between the baseline and model
scenarios.


                                                                 38
U.S. Postal Service Office of Inspector General                                    July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network               RARC-WP-11-006


Differences between modeled and actual transportation costs include a model
assumption that mail transportation can be purchased by the cubic-foot-mile rather than
by truck load. Hence, modeled routes with mail volumes that have unused truck space
do not reflect the full truck load costs. Because actual truck utilization rates are low, this
is likely one of the most significant sources for the transportation cost difference.




                                                    39
U.S. Postal Service Office of Inspector General                                               July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                          RARC-WP-11-006



Appendix E              Stakeholder Interview Summary

Interviews with key users of the Postal Service network, including major business
customers and mail service providers, were conducted between September 29, 2010,
and November 11, 2010. Interviews were conducted with users/providers of many key
Postal Service product categories, including First-Class Mail, Periodicals, Standard
Mail, Package Services, Priority Mail, Parcel Select, and Parcel Return Service. Within
each product group, representatives of a variety of industry segments or their trade
association were selected for interview in order to obtain a broad spectrum of input from
industry stakeholders with different needs from the Postal Service network.

                         Table 15: Stakeholder Interviews by Mail Segment

                                                                             NUMBER OF
                                             TYPE                           INTERVIEWS
                         First-Class Mail                                           5

                         Periodicals                                                5

                         Standard Mail                                              4

                         Package Services                                           3

                         Priority Mail/Parcel Select                                1

                         Consolidator/Logistic Providers*                           5

                         Other (Competitors, Paper & Envelope                       4
                         Manufacturing, Remittance Mail, etc.)
                         TOTAL NUMBER OF INTERVIEWS                                 27

                         *Interviews with consolidator and logistics providers produced
                         feedback regarding multiple mail classes.

                        Source: OIG Interview Summary

Network users define an optimized network in much broader terms than the number,
location, and function of postal facilities. Their successful and cost-efficient use of the
postal network encompasses all aspects of network access, ease of use, and ability to
achieve their desired service levels. While different industry segments expressed
somewhat different needs from the postal network, mostly in the area of service, needs
expressed by interviewees within the same industry segment were consistent. Table 16
summarizes stakeholder responses into four main categories, network strategy, network
design, service, and current network strengths and weaknesses.




                                                          40
U.S. Postal Service Office of Inspector General                                               July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                          RARC-WP-11-006

                              Table 16: Stakeholder Interview Summary
                                              Mailing Industry Segment Feedback

  Network Strategy
                             A long-term, overarching mail processing and transportation network
                              strategy needs to be defined, documented, and shared with network
                              users and other stakeholders.
                             Network users would like to partner with the Postal Service to develop
                              a strategic plan and ease implementation.
                             Develop a long-term network strategy and stay the course.
   Network Design
                             Most users are unconcerned with the specific network design, but
                              sensitive to changes that may impact access, cost, and service level.
                             Network users support reducing the number of processing facilities.
                             Locate facilities at a reasonable distance and based on volume
                              densities coming to those facilities; plan resources to effectively
                              manage the incoming volume.
                             Eliminate inefficient multistory inner-city processing facilities.
                             The industry wants one-stop shopping for all product types and shapes
                              (letters, flats, and parcels), not three different facilities in one
                              geographic area.
                             The desire for a flexible network to accommodate marketplace and mail
                              volume changes.
       Service
                             Consistency and predictable service are more important than speed.
                             Some industry segments are open to relaxing service standards if
                              consistency and predictability improves.
                             Consider relaxing service standards by geography.
                             A few industry segments focused on speed of service and the ability to
                              obtain overnight service.
                             Improved service consistency can lead to product growth.
  Current Network         Strengths
    Strengths &
   Weaknesses                Build on strengths and core competencies, such as drop ship and “last
                              mile” delivery.
                          Weaknesses

                             Lacks logistics and transportation expertise.
                             Poor communication of network changes.
                             Information technology support is lacking and can be costly to users.
Source: OIG Analysis of Mailing Industry Stakeholder Interviews




                                                    41
U.S. Postal Service Office of Inspector General                                 July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network            RARC-WP-11-006


Network Strategy

Postal Service network users across all product groups expressed a common desire for
a long-term network optimization strategy that is documented and shared with network
users. Once the strategy has been determined, users also believe the Postal Service
must stay the course. The Postal Service could then implement appropriate pricing
structures, incentives, and changes in mailing standards to drive customer behavior in a
manner that will best complement the optimized network. Sufficient advance notice is
needed before making significant changes in the network strategy.

In situations where marketplace or volume changes result in optimization challenges
such as excess capacity, the Postal Service can explore alternatives that might reduce
significant negative impacts on its business customer and service provider partners. If
the Postal Service does make significant network changes, users want sufficient lead
time to make appropriate changes in their processes and operations in a cost-effective
and efficient manner.

Network Design

Postal network users were asked during the interviews how they would redesign the
network using a “clean slate” approach to better meet their business needs. In many
cases, the specifications of the network (e.g., how many postal plants there should be,
where they should be located, what their functions should be) were not a great concern
as long as core needs from the network were able to be met. Not all network users
interviewed had a detailed view of how the Postal Service network should be
redesigned but some provided the following suggestions.

       When asked what the impact would be to their business if the Postal Service
        were to significantly decrease the number of processing facilities in its network,
        nearly all network users responded positively, equating fewer processing facilities
        to lower costs. Most supported continued or even accelerated plant consolidation
        efforts by the Postal Service, as long as they are able to meet their critical
        network needs (network access, ease of use, service) at a reasonable cost.

       Users suggest processing facilities be located based on volume densities and
        geographically located based on the origination and destination mail volume
        density patterns. Network users operating as logistics providers, mail
        consolidators, and other mail preparation service providers generally locate their
        facilities based on their customer volume densities as well as other business
        drivers related to real estate, workforce, and access to surface transportation
        routes.

       Business customers and their providers employing drop ship programs to bypass
        postal facilities and achieve more control over service universally reported that
        having to spread their mail volume over more processing destinations would
        reduce the mail volume densities necessary to make drop ship programs cost
        effective. Transportation and mail preparation costs would increase for their


                                                    42
U.S. Postal Service Office of Inspector General                                    July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network               RARC-WP-11-006


        businesses due to having to separate and drop ship mail to more postal facilities
        with less volume per facility; however, too few postal processing facilities could
        hamper their ability to achieve their desired service levels. If service could be
        maintained with fewer facilities, however, they were very supportive of the
        concept.

       Design a more flexible network to accommodate volume peaks and lows in a
        cost-effective manner. Postal network users expressed the view that a more
        flexible cost-effectively network can better accommodate marketplace demands,
        changes in mail volume, changes in geographic mail flow patterns and customer
        needs. Specific suggestions to design a more flexible network included
        renting/leasing facilities and transportation to reduce costs and improve flexibility;
        exploring partnering opportunities to share network resources, particularly
        transportation; and employing a more flexible workforce to reduce labor costs
        and handle periods of peak or low mail volume.

       Include postal facilities based on the most efficient and cost-effective model for
        each facility type. Network users felt that for each type of postal facility a high-
        efficiency, low-cost model should be developed, which then should be used to
        design standardized facilities of each type (e.g., consolidation hub, processing
        plant, carrier/delivery operation). Network users largely viewed very large
        processing facilities as unwieldy and difficult to manage, culminating in mail flow
        issues which lead to service deficiencies.

       Multistory facilities and those located in inner-city areas were identified as types
        of facilities to be avoided. Network users view these types of facilities as
        confusing, inefficient, and costly, and do not rank highly their experiences in
        using these types of facilities for mail entry. Those with their own logistics and
        production operation facilities reported that their businesses have moved away
        from using these types of facilities for their own operations.

       Eliminate separate entry requirements based on product type. Network users
        largely use economies of scale in transportation of postal products. Separate
        postal facilities based on processing category (shape) or product type (mail
        class) erode economies of scale and increase network user costs.

       Simplify preparation and entry requirements. Standard operating procedures
        should be more consistent across product categories. Network users said that
        complexities of mail preparation and entry requirements are a barrier in using the
        Postal Service network. In addition, network users entering different product
        types of the same processing category (e.g., different types of parcels) said that
        having different preparation and entry requirements for each product type even
        though the pieces are processed the same way by the Postal Service is a barrier
        to their ability to consolidate, combine, and drop ship such mailings in a cost-
        effective manner.




                                                    43
U.S. Postal Service Office of Inspector General                                  July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network             RARC-WP-11-006


Service

Network users signaled the importance of service in optimizing the Postal Service’s
network. Users desire a network design that allows them to achieve desired service
levels and needs. Service needs encompass the ability to manage and control service
to meet customer expectations, need for service commitments to be met consistently,
and service visibility. The Postal Service can work with network users to review existing
service standards by product, with an eye toward updating standards to reflect current
network user needs and market realities.

Many product users were open to some modification or relaxation of service standards,
which could allow the Postal Service to more optimally design its network. Among those
product users needing to retain the ability to achieve overnight service (e.g., some First-
Class Mail, time-sensitive Periodicals, and Competitive Services users), many were
open to concepts such as new drop ship incentives or different product offerings that
would allow them to better manage and control their desired service level. If there were
viable options that they could use to better control service, for example, they would
have less need for overnight service standards in some cases. Many product users said
they would pay more for overnight service when needed, but would prefer to have a
variety of options to achieve various service levels. Network users offered the following
on their service needs:

       When asked what impact it would have if the Postal Service were to “relax”
        existing service standards by one day (e.g., a two-day standard today would
        become a three-day standard), but significantly improve consistency of meeting
        the standard, many network users said they could adjust their business models
        accordingly without a significant negative impact. When asked what types of
        changes in service standards would be tolerable for their business, relaxation of
        standard by one day was relatively acceptable; however relaxation of existing
        standards by more than one day was perceived to be negative.

       Most notably, several major First-Class Mail product users said their businesses
        do not need overnight service for the majority of their mail. A two-day service
        standard, consistently achieved, would largely meet their business needs, they
        reported, particularly if there were more options available to First-Class Mail
        users to control costs and better time delivery, such as drop ship.

       For a few industry segments, however, speed of service remains important.
        Mailers of some time-sensitive First-Class Mail and Periodicals products, as well
        as users of Parcel Select, for instance, expressed the need to retain their current
        ability to achieve overnight service. These stakeholders were not necessarily
        adverse to changes in the design of the postal network, however, as long as they
        had a cost-effective way to achieve overnight service.

Postal network users reported service needs that differ by the types of postal products
they use. In most cases, as can be seen by the percentage of mail drop shipped within
the postal network closer to its destination, network users prefer to manage the


                                                    44
U.S. Postal Service Office of Inspector General                                     July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network                RARC-WP-11-006


transportation and timing of their mail entry themselves, to reduce costs and better
achieve their desired delivery service. Postal network users said they can perform these
functions more efficiently themselves or through service providers. Mailers offer the
following about network design and drop shipping.

       The network design and product offerings must provide users with the ability to
        attain their desired service levels. Business customers and service providers
        have service expectations based on the Postal Service’s established service
        standards. In many cases, network users utilize drop ship programs to bypass as
        much of the Postal Service network as possible and to better control the timing of
        their delivery to meet customer needs.

Network Strengths

Build an optimized network design based on the Postal Service’s strengths and unique
competencies. Exploit existing product offerings and incorporate strategies to minimize
use of the end-to-end postal network. Drop ship entry programs are a key example.
They are already an integral part of the Postal Service network design and build on its
last mile competencies. The cost avoidance the Postal Service achieves through drop
ship incentives is well documented through decades of regulatory proceedings. Users
feel the Postal Service does not appear to have sufficiently explored the impact
significant changes in drop ship incentives/patterns could have on the network.

Network Access

Network users offered additional suggestions and observations about issues related to
network access:

       Implement mail entry support systems to facilitate electronic management of
        appointments and mail entry. Those using the Postal Service Facility Access and
        Shipment Tracking (FAST) system often reported that appointments could be
        obtained by calling the postal facility even though they were not shown as
        available through the FAST system. Network users also reported issues,
        inconsistencies, and deficiencies with the FAST system.

       Offer sufficient appointment availability to meet network user needs. Many postal
        network users reported dissatisfaction with what they perceived as a growing
        trend for Postal Service facilities to limit the number and hours for mail entry
        appointments. Network users need to be able to achieve their service needs
        through availability of mail entry appointments at all postal facility types, including
        Destination Delivery Unit (DDU) facilities.

       Create a better process for re-directing mail around postal facility changes.
        Nearly all network users interviewed reported dissatisfaction with the Postal
        Service’s policies and procedures for redirecting mail entry from one postal
        facility to another. Lack of advance notification tools and system consistency
        often leads to situations where network users bring mail to what they believe is


                                                    45
U.S. Postal Service Office of Inspector General                                   July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network              RARC-WP-11-006


        the correct postal facility, only to have the mail refused and redirected to another
        destination, which could be as close as a different dock door at the same facility,
        or as far away as another state. Regardless of the distance, however,
        inconsistent redirection data and redirections made without sufficient advance
        notice add costs to industry and causes dissatisfaction.

Technology Improvements

Significant technology improvements are necessary to better support and manage an
optimized network. Postal network users were asked what technology improvements
can make the Postal Service better in supporting its existing or an optimized network.
Interviewees interpreted “technology” as applying to a variety of things, including mail
processing equipment technology, network management technology, transportation
technology, or mail data technology.

Employ intelligent network management. Network users recommended that the Postal
Service leverage data to better utilize resources (e.g., facility staffing, transportation,
processing sort plans) based on advance information of incoming volumes at facilities.
Data should be communicated between postal facilities in terms of mail movement, as
well as data obtained from customers in advance of mailing or at the time of entry.
Utilizing data in near real-time could enable dynamic mail flow/transportation
management between postal facilities.

Sharing Network Resources

Optimize the network by utilizing partnering strategies to share resources such as
transportation with users. Postal network users largely support outsourcing components
of the network as well as more aggressively pursuing partnering opportunities to share
resources such as transportation or facility space. Business customers and their
providers were open to partnering concepts that involve sharing Postal Service
transportation and facility space, as well as being open to concepts that involve sharing
their own transportation/facility space with the Postal Service.

While issues were identified that would need to be resolved, network users largely felt
that the Postal Service has an opportunity to aggressively explore options. These
opportunities could help the Postal Service achieve a more cost-effective and flexible
network design. Some specific examples of ideas suggested during the interviews
included:

       Transportation. Redundant transportation utilization and networks can be
        reduced through partnering. Businesses transporting mail through drop ship entry
        often are running redundant or less-than-full transportation for routes similar to
        one another and to Postal Service transportation. Through more data sharing
        and intelligent network management, the Postal Service and businesses could
        consolidate mail transportation to optimize truck capacity and minimize
        transportation redundancies. Mail consolidators often know the contents of their
        trucks a week in advance, which could facilitate planning of shared industry



                                                    46
U.S. Postal Service Office of Inspector General                                   July 6, 2011
A Strategy for a Future Mail Processing & Transportation Network              RARC-WP-11-006


        transportation. It was also suggested that the Postal Service can create an
        electronic system to notify a group of prequalified businesses when it has space
        available on its transportation and receive just-in-time bids for the space. Or the
        Postal Service can buy space on local transportation from others, such as Wal-
        Mart, to move mail between facilities.

       Outsourcing. Business customers and their providers were open to the Postal
        Service outsourcing transportation and network components, while retaining
        management of its last-mile core competencies.

       Collaborative Venue. Network users report that a venue for collaborative
        discussions with the Postal Service on network resource sharing can be
        valuable.




                                                    47
